Audit Report

Stop Violence Against Indian Women Discretionary Grant Awarded to the Chickasaw Nation, Ada, Oklahoma

Audit Report GR-80-05-003


February 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Stop Violence Against Indian Women discretionary grant, number 96 WI NX 0042, awarded by the U.S. Department of Justice, Office of Justice Programs, to the Chickasaw Nation in Ada, Oklahoma.  The purpose of this grant was to assist Indian tribal governments in developing and strengthening tribal justice systems responses to violent crimes committed against Indian women.  Its purpose was also to strengthen tribal law enforcement, prosecution efforts, and tribal courts, where they exist.  The program supports the development of strategies and innovative approaches to provide services to Indian women who are victims of domestic violence, dating violence, sexual assault, and stalking.  As of August 13, 2004, the Chickasaw Nation was awarded a total of $598,330 to encourage judicial intervention in domestic violence cases by developing formal investigation and prosecution protocols, codes, and orders in the areas of stalking and domestic violence. 

We tested the Chickasaw Nations compliance with essential grant conditions and found weaknesses in three areas  reporting, matching, and grant expenditures.  Our report contains four recommendations that are discussed in detail in the Findings and Recommendations section.  Our audit objectives, scope, and methodology appear in Appendix I.

As a result of the deficiencies found, we question costs in the amount of $103,518.1    We discussed the results of our audit with the Chickasaw Nation Stop Violence Against Indian Women officials and have included their comments in the report, as applicable.

  


Footnotes

The Inspector General Act of 1978 contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for the definition of questioned costs.